***THIS IS A CAPITAL CASE***
No.
IN THE SUPREME COURT OF THE UNITED STATES
JEFFREY HESSLER,
Petitioner,
v.
STATE OF NEBRASKA,
Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I have served all parties required to be served with the
Motion to Proceed In Forma Pauperis and the Petition for a Writ of Certiorari.
Specifically, in compliance with S. Ct. R. 29 on August 28, 2020, I emailed these
documents and sent a copy via United States Postal Service, first-class postage
prepaid, to the below-listed counsel:
Mr. Doug Peterson
Mr. Jim Smith
Nebraska Attorney General
2115 State Capitol
Lincoln, NE 68509
I declare under penalty of perjury that the foregoing is true and correct. Executed on
August 28, 2020.
s/Jerry M. Hug

